Before the Committee on Transportation and Infrastructure
United States House of Representatives


For Release on Delivery
Expected at
10:00 a.m. EDT
                          PHMSA’s Process for
Thursday
September 10, 2009
                          Granting Special Permits
CC-2009-096
                          and Approvals for
                          Transporting Hazardous
                          Materials Raises Safety
                          Concerns


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member Mica, and Members of the Committee:

We appreciate the opportunity to testify today on safety issues within the Pipeline and
Hazardous Materials Safety Administration’s (PHMSA) Special Permits and
Approvals Program. As you know, special permits and approvals exempt their
holders from certain Federal regulations governing the transport of hazardous
materials. Currently, there are about 5,500 special permit holders 1 and 118,000
approvals.

On July 28, 2009, we issued a management advisory to PHMSA that outlined a
number of concerns. My testimony today will focus on those concerns as well as new
ones identified through our ongoing work. Specifically, (1) shortcomings in the
processes for reviewing and approving special permits and approvals, (2) concerns
with PHMSA’s oversight of permit holders’ compliance with safety requirements, and
(3) long-standing safety issues that remain unaddressed by PHMSA.

In summary, we found that PHMSA grants special permits and approvals without
exercising its regulatory authority to review applicants’ safety histories and without
coordinating with partner safety agencies. Despite these weaknesses, PHMSA does
not target individuals and companies that hold special permits and approvals for
safety compliance reviews. These issues—along with safety concerns previously
raised by our office, the Federal Aviation Administration (FAA), and the National
Transportation Safety Board (NTSB)—call into question the effectiveness of
PHMSA’s process for granting special permits and approvals.

We want to recognize Secretary LaHood and Deputy Secretary Porcari for their
leadership in directing PHMSA to formalize an action plan addressing these and other
concerns regarding the Special Permits and Approvals Program.




1
    There are now about 1,250 active special permits. The 5,500 referenced above include these plus all party-to permits.


                                                                                                                            1
BACKGROUND
PHMSA is the lead agency responsible for regulating the safe transport of hazardous
materials, including explosive, poisonous, corrosive, flammable, and radioactive
substances. 2 PHMSA regulates up to 1 million daily movements of hazardous
materials, totaling up to 20 percent of all freight tonnage shipped each year in the
United States. The FAA, Federal Motor Carrier Safety Administration (FMCSA), and
Federal Railroad Administration (FRA) also oversee and enforce regulations for their
respective industries.

Many hazardous materials are transported under the terms and conditions of special
permits and approvals. 3 Special permits and approvals allow a company or individual
to transport, package, or ship hazardous materials in a manner that varies from the
regulations, provided they meet two key criteria for authorization:

     the company or individual is fit to conduct the activity authorized by the special
      permit or approval and
     the level of safety the company or individual is proposing is as safe as or safer
      than requirements from which the company is seeking relief.

Obtaining a special permit or approval allows a company to use technological
innovations in transporting hazardous materials—improvements that have emerged
since the regulations were first promulgated. Requests for special permits and
approvals generally include “new,” “renewals,” and “party-to” applications (a party-to
application applies only to special permits and is a request to “piggy-back” on a new
or existing permit). New special permits may be authorized for up to 2 years, at
which time they may be renewed for a period of up to 4 years. 4 Emergency special
permits must be submitted directly to the affected Operating Administration, which
evaluates and confirms the emergency, recommends any conditions for inclusion in
the permit, then forwards its review to PHMSA. The exhibit to this statement
describes the process requirements for special permit and approval applications.

PHMSA DOES NOT PROVIDE ADEQUATE REVIEWS OF
APPLICATIONS FOR SPECIAL PERMITS AND APPROVALS
PHMSA does not review applicants’ incident and enforcement histories—critical
factors in assessing fitness—before authorizing special permits and approvals for
individuals, businesses, and trade associations. We also found that PHMSA has
granted special permits and approvals even though its reviews of requests do not

2
    Hazardous Materials Regulations, 49 C.F.R. § 171-180 (2009).
3
    Special permits authorize a holder to vary from specific provisions of the Hazardous Materials Regulations; identify the
    section(s) from which relief is provided; and include provisions, conditions, and terms that must be followed in order for
    the special permit to be valid. An approval means written consent from PHMSA’s Associate Administrator to perform a
    function that requires prior consent under the Hazardous Materials Regulations.
4
    The 4-year renewal period was authorized under SAFETEA-LU, Pub. L. No. 109-59 (2005).


                                                                                                                            2
always demonstrate that applicants will provide a level of safety equal to the
regulations from which they seek relief. In addition, PHMSA does not sufficiently
coordinate with other agencies that are involved in overseeing the transport of
hazardous materials before issuing a special permit or approval.

PHMSA Does Not Consider Applicants’ Safety Histories When
Determining Fitness for Special Permits and Approvals
Hazardous Materials Regulations provide PHMSA the authority to review an
applicant’s safety history when assessing the applicant’s fitness for a special permit or
approval. 5 PHMSA’s reviews, however, solely examine the safety of the requested
action, process, or package—not the applicant’s prior incidents or enforcement
violations. According to PHMSA officials, applicants’ incident and compliance
histories have no bearing on their ability to safely carry hazardous materials—a safety
issue we highlighted in our July 2009 management advisory. Specifically, we found
that PHMSA had granted 1 company a special permit to operate bulk explosives
vehicles, 6 despite the fact that over the last 10 years the company had 53 incidents—
12 of which were serious with 9 of those involving vehicle rollovers—and
22 violations issued by PHMSA’s or FMCSA’s enforcement office. 7

In addition, our ongoing review found no instances where PHMSA considered
applicants’ safety histories. However, our assessment of 99 non-emergency special
permits found that 26 of those holders (26 percent) had at least 5 incidents or
violations over the 10-year period preceding PHMSA’s grant of the permit. For
8 (about 31 percent) of these 26 permits, each applicant had at least 100 incidents,
some of which were serious. For example, 1 company was granted a special permit in
September 2004 despite having 321 prior incidents and 5 prior enforcement
violations. Further, the company’s permit was renewed 2 years later despite having
an additional 26 incidents and 5 enforcement violations.

We also found that PHMSA granted special permits to 12 trade associations—
effectively a “blanket authorization” for about 5,000 member companies. PHMSA
granted these permits without verifying member companies’ fitness to carry out the
terms and conditions of the permit. PHMSA also did not determine whether permits
were needed or used, whether companies actually existed or provided accurate

5
    49 C.F.R. § 107.113f(5) (2009). The regulations state that the Associate Administrator may grant an application upon
    finding that, among other things, the applicant is fit to conduct the activity authorized by the exemption or special permit.
    This assessment may be based on information in the application, prior compliance history of the applicant, and other
    information available to the Associate Administrator.
6
    Permit holders are authorized to transport certain explosives, oxidizers, corrosive and combustible liquids, and blasting
    caps on the same truck.
7
    An incident generally involves the unintentional release of a hazardous substance or discovery of an undeclared hazardous
    material. PHMSA defines serious incidents as those incidents involving fatalities, serious injuries, closure of a major
    transportation artery, evacuations of 25 or more people, and hazardous materials releases of greater than 119 gallons or
    882 pounds.




                                                                                                                               3
information about themselves, or whether they were even aware that they had a permit
to abide by. For example, we visited 18 companies that were members of 7 of the
12 associations and found that:

      3 of the 4 companies using an association-granted permit had compliance issues,
       including deficiencies with shipping papers, training requirements, certificates of
       registration, and security plans. In fact, at two facilities, the companies were
       unaware that a special permit applied to the function they were performing and so
       they were not meeting the terms and conditions of that permit. One of the
       companies explained they were recently made aware of the applicable permit after
       the trade association warned them of a possible investigation into permit
       compliance by DOT Office of Inspector General auditors.

      4 companies did not reside at the address provided by their association (currently,
       the terms of the permit do not require trade associations to notify PHMSA of any
       changes with its member companies); and

      10 had no reason to use their industry association’s permit because they did not
       perform the activity for which the permit was granted.

Finally, PHMSA also granted approvals to applicants without examining their safety
histories. Of the 56 approvals that we reviewed, 8 5 were granted to applicants with
prior safety incidents and violations, ranging from 6 incidents and 1 violation to
178 incidents and 23 violations.

PHMSA Has Granted Special Permits and Approvals Without Support for
an Equal Level of Safety and Has Overlooked Incomplete Applications
PHMSA has granted special permits and approvals without sufficient data and
analyses to confirm that the applicants’ proposed level of safety is at least equal to
what is called for in the Hazardous Materials Regulations.             We reviewed
99 non-emergency special permits and found that for nearly 65 percent (8 new,
37 renewals, and 19 party-to status) 9 PHMSA’s evaluations 10 were either incomplete,
lacking evidence to support that the applicant demonstrated an equal level of safety,
or simply nonexistent. Of particular concern is the lack of supporting documentation
for renewal and party-to permits, which are based on evaluations PHMSA may have
performed several years earlier when assessing the original (new) special permit
application. According to PHMSA officials, some of this information was lost when
the Office of Hazardous Materials Safety migrated to a new information system and

8
     We sampled a total of 68 approvals, 12 of which were denied, reducing our sample to 56.
9
     We sampled 62 new special permits, of which 16 were granted emergency status and 6 were denied, reducing our sample
     to 40 new special permits. We also reviewed a sample of 39 renewals, 1 of which was denied, reducing our sample to
     38 renewals. Our sample also included 21 party-to permits.
10
     PHMSA’s evaluations are generally performed by chemists, general and mechanical engineers, physicists, and physical
     science experts in PHMSA’s Hazardous Materials Technology Office.


                                                                                                                      4
decided to transfer the most current special permit but not the historical records.
Despite this lack of original information, PHMSA opted to renew permits or grant
party-to status without conducting a new evaluation. Further, there was still
information missing for the eight new permits—information needed to support an
equal level of safety.

Evidence of an equal level of safety to support emergency special permits and
approvals was similarly lacking:

   PHMSA’s evaluations for 8 of the 16 (50 percent) emergency special permit
    applications we reviewed were either incomplete, not reviewed by PHMSA’s
    technical staff, lacked a conclusion that an equal level of safety was demonstrated,
    or were not performed.
   Each of the 56 approval applications we reviewed lacked evaluation
    documentation by PHMSA to indicate how an equal level of safety was reached.

In addition, PHMSA is not holding applicants accountable for providing required
information, as it has granted new permits and renewals to applicants who did not:

   provide relevant shipping and incident experience,
   demonstrate that a special permit achieves a level of safety at least equal to that
    required by regulation, and
   certify—for renewals—that the original application remains accurate and
    complete.

Within the 99 non-emergency permits we reviewed, we sampled 40 applications for
new permits and 38 applications for renewals. The table below shows that for most of
these, required information was either not provided by applicants or not validated by
PHMSA.
               Table. Insufficient Information on Special Permit Applications
   Permit Type         Shipping/Incident       Shipping/Incident       Equal Level of      Accuracy and
                          Experience            Experience Not          Safety Not         Completion of
                           Missing               Validated by           Supported             Original
                                                   PHMSA                                    Application
                                                                                           Not Supported
New                              18                       19                 5                  N/A
Renewal                           1                       37                N/A                  7
  Total Problems
                                 19                       56                 5                     7
   Found
Note: We did not examine what applicants provided for the 21 party-to permits since they generally provide
limited information, given that they receive their permit based on PHMSA’s evaluation of the original permit
holder’s application.




                                                                                                          5
We also looked at applications for emergency permits, which require applicants to
provide specific support to justify emergency processing. However, 3 of the
16 applicants (or about 19 percent) we reviewed who were granted emergency permits
did not provide such support.

PHMSA Grants Special Permits and Approvals With Little or No Input
from Partner Safety Agencies
While PHMSA is not required to coordinate with Operating Administrations before
authorizing a non-emergency special permit or approval, the exchange of information
among safety stakeholders, especially those with oversight and enforcement
responsibilities, is fundamental to safety. According to officials we spoke with,
coordination between PHMSA and FAA, FRA, and FMCSA mainly consists of
informal e-mails and phone conversations.

Based on our review of 99 non-emergency special permits, we found no evidence that
PHMSA coordinated with the affected Operating Administration in granting 36 of
40 (90 percent) new permits, all 38 renewals, and 19 of 21 (about 90 percent) party-to
permits we sampled. Coordination with partner safety agencies prior to granting
renewal and party-to permits is especially critical so they can ensure these applicants
are still fit to conduct the authorized activity and that their proposed level of safety
meets or exceeds the safety level required by the Hazardous Materials Regulations.
Authorizing special permits that have not been fully vetted could ultimately lead to
unsafe transportation of hazardous materials. Twelve of the 36 new permits that were
not coordinated allowed transport by air (passenger and/or cargo), a particularly
vulnerable transportation method if an incident were to occur.

FAA has also expressed dissatisfaction that PHMSA does not provide sufficient and
consistent documentation upon which FAA can base its evaluation of the special
permit or approval terms and conditions. For example, in 2008, PHMSA coordinated
an emergency special permit application to transport by cargo aircraft several
hazardous materials contained in spacecraft parts and components. The items
included lithium batteries in a package that exceeded size parameters and a poisonous
gas contained in pipes, which is normally prohibited by the Hazardous Materials
Regulations for shipment by air. According to FAA, the request did not provide any
additional safety measures for the pilots, and PHMSA did not include an explanation
of how an equal level of safety would be met.

This example also illustrates the importance of coordination for emergency special
permits, which is required by regulations. 11 Unlike non-emergency special permits,
emergency special permits must be submitted directly to the affected Operating
Administration, which evaluates and confirms the emergency, recommends any
conditions for inclusion in the permit, then forwards its review to PHMSA. However,
11
     49 C.F.R. § 107.117(d) (2009).


                                                                                      6
in 13 of the 16 emergency applications we reviewed, the applications went directly to
PHMSA and were not coordinated with the affected Operating Administration.
PHMSA also failed to publish 11 emergency permits in the Federal Register within
90 days of issuance as required by law for public safety and stakeholder notification.

The lack of coordination between PHMSA and FMCSA is also disconcerting, given
that special permits for use of “bulk explosive” vehicles continue to be approved
despite their number of serious incidents and violations—a key issue highlighted in
our July management advisory to PHMSA. For the period October 2005 to July 2008,
bulk explosives vehicles have experienced 14 serious incidents, 11 of which involved
vehicle rollovers.

We also reviewed 56 approvals and found that none were coordinated with the
affected Operating Administration. According to PHMSA, most approvals (e.g.,
explosive classifications, fireworks classifications, and retesters of cylinders) are
mode-neutral and do not require coordination. We agree that not every approval
needs to be coordinated, but certain approvals should be, especially those that provide
exceptions from regulatory requirements or prohibitions, such as authorizations to
transport lithium batteries in quantities greater than 77 pounds (anything under this
weight does not require PHMSA approval). Our work underscores the importance of
PHMSA and the affected Operating Administration jointly developing and
implementing a Memorandum of Agreement on the type of approval requests that will
be coordinated. This would provide each agency with an opportunity to share their
knowledge about the party seeking an alternative method of compliance to the
requirements in the Hazardous Materials Regulations.

PHMSA DOES NOT CONDUCT REGULAR COMPLIANCE REVIEWS
OF INDIVIDUALS AND COMPANIES THAT HAVE BEEN GRANTED
SPECIAL PERMITS AND APPROVALS
PHMSA’s risk-based oversight approach considers three priority factors when
selecting individuals and companies that transport hazardous materials for safety
compliance reviews: accident investigations, third-party complaint investigations, and
fitness inspections. 12 Conducting compliance reviews of special permit and approval
holders is not considered a priority, even though PHMSA states it holds companies
with special permits and approvals to a higher standard of compliance than non-
permit holders. PHMSA contends that this does not need to be incorporated in its
risk-based oversight criteria because special permit holders have demonstrated better
compliance over the last 10 years than non-permit holders.

Our visits to 27 companies indicate otherwise. Sixteen of these companies
(59 percent) held 91 special permits. We found that all 16 were not complying with

12
     Fitness inspections are usually referred from PHMSA’s Office of Special Permits and Approvals to its Office of
     Hazardous Materials Enforcement (OHME).


                                                                                                                 7
various terms and conditions of 56 (62 percent) of the permits, such as training,
shipping, and signage requirements. For example, one company failed to post a
required sign on a vehicle that read “Warning, trailer may contain chemical vapor.
Do not enter until vapors have dissipated.” Officials from five companies were
unaware of which special permits applied to their location, and two facility officials
seemed confused as to what a special permit was and made several calls to their
corporate office or manager to obtain clarification on their permit use.

We are particularly concerned about these weaknesses with regard to the many
companies whose operations depend on special permits and approvals and those
companies operating multiple permits, approvals, or both. For example, we identified
16 companies that each had 20 or more special permits, 7 companies that each had 30
or more special permits, and 1 company that had 65 special permits. 13 Omission of
the priority factor, “holder of special permit and approval” from PHMSA’s risk-based
oversight criteria means it cannot increase oversight for those companies that may not
be providing an equal or higher level of safety as specified by the terms of the permit
and the Hazardous Materials Regulations.

LONG-STANDING SAFETY CONCERNS HAVE LARGELY GONE
UNADDRESSED BY PHMSA
Safety concerns associated with bulk explosive trucks were raised to PHMSA more
than 2 years ago but have only recently received attention. Although PHMSA formed
an advisory group primarily comprised of industry representatives, the group did not
produce actionable solutions to these vulnerabilities. Our recent management
advisory to PHMSA brought this issue to the attention of the highest levels of the
Department. In response to our advisory, PHMSA developed an action plan
addressing our concerns related to specialized bulk explosive truck operations, as well
as other issues found with the special permits program in general. We intend to
monitor PHMSA’s progress on this issue as this is not the first time identified safety
concerns have gone largely unaddressed.

Safety Concerns Associated With Certain Bulk Explosives Special
Permits Have Only Recently Received Attention
In June 2007, PHMSA’s Chief of the Office of Hazardous Materials Enforcement
(OHME), Central Region, sent a letter to the Director of the Special Permits and
Approvals Office citing specific problems and risks associated with vehicles traveling
under two special permits. The letter described the results of a PHMSA investigation
of a rollover incident where the vehicle’s tanks had ruptured and the different
hazardous materials had mixed, creating the potential for a catastrophic event. As a
precaution, the local fire department evacuated all areas within a 1.5-mile radius of
the incident—1 mile beyond the emergency response handbook requirement.

13
     We excluded the Department of Defense as a holder of special permits in our analysis.


                                                                                             8
The two special permits in question—11579 and 12677—allow permit holders to
transport certain explosives, oxidizers, corrosive and combustible liquids, and blasting
caps all on the same truck. While this practice is prohibited by the Hazardous
Materials Regulations, permit holders are exempted from these requirements if they
can show that their method of transport meets or exceeds the level of safety specified
in the regulations and that they are fit to conduct the activity authorized by the permit.

OHME made a series of recommendations, one of which requires all operators of
vehicles with multi-hazard special permit authorizations to receive additional safety
training that specifically addresses vehicle susceptibility to rollovers.

In May 2008, nearly a year after receiving OHME’s letter, PHMSA formed an
advisory group, comprised of DOT and industry representatives, which met and
discussed several issues. These included vehicle rollover prevention, training for
drivers of these vehicles, improved battery protection or relocation, and ways to
minimize circumstances that would cause a fire in a rollover spill. We first raised our
concerns about the number of incidents and violations associated with these special
permits in January 2009. At that time, PHMSA officials told us that the advisory
group was looking into this matter. In March 2009, the group met again, and the
Institute of Makers of Explosives representatives presented recommendations for the
increased safety of the vehicles operated under the special permits. At both meetings,
OHME’s recommendations were not pursued and no clear course of action was
determined except that another meeting in the near future would be beneficial.

Long-Standing Safety Concerns Regarding Special Permits To Ship
Lithium Batteries Have Not Been Addressed
In 1999, a pallet of lithium batteries caught fire while being handled between flights
at Los Angeles International Airport. Following this incident, FAA raised safety
concerns involving life-threatening accidents with the air transport of bulk shipments
of lithium batteries. Further, the NTSB’s investigation of this incident revealed that
these batteries presented an unacceptable safety risk to aircraft and passengers. The
NTSB made a series of recommendations, including that packages containing lithium
batteries be identified and shipped as hazardous materials when shipped on aircraft.

During our 2003 through 2004 review of FAA’s Hazardous Materials Safety Program,
two serious incidents involving the shipment of lithium batteries occurred. In one of
these incidents, which occurred in August 2004, a shipment of lithium batteries
caught fire on a ramp of a major all-cargo carrier at Memphis International Airport.
According to the shipping documents, the battery package was shipped under a
PHMSA approval; however the materials were not packaged according to the terms of
the approval, and the approval was never coordinated with FAA. Our November
2004 report ultimately concluded that discussions between FAA and PHMSA (known
as the Research and Special Programs Administration at the time) on the safe


                                                                                        9
transport of lithium batteries and other issues on rules governing air shipments of
hazardous materials had been ongoing for 5 years without any effective resolution.14

We reported that serious efforts to resolve these issues were only undertaken after the
August 2004 incident; high-level Departmental attention; and issuance of FAA’s
technical report, which concluded that lithium batteries pose a unique threat in the
cargo compartment of an aircraft because lithium fires cannot be extinguished by
FAA’s certified fire suppressant system. We made a number of recommendations to
address these unique safety requirements. The Assistant Secretary for Transportation
Policy concurred, stating that the Department “anticipate[s] having a process
formalized by February 2005” to resolve such disputes between Operating
Administrations. However, the Department has yet to implement such a policy.

In December 2004, the Department issued an interim final rule on the safe handling
and shipping of lithium batteries by air. This rule was finalized in August 2007 and
subsequently amended in January 2009. Both amendments mandated additional
safety requirements to address FAA’s concerns and the NTSB’s safety
recommendations. However, not all of FAA’s and NTSB’s concerns have been
resolved. Currently, PHMSA, in consultation with FAA, is proposing changes to the
January 2009 rule to include that all lithium batteries be designed to withstand normal
transportation conditions and packaged to both reduce potential damage that could
lead to a catastrophic incident and minimize the consequences of an incident. At the
core of the current debate is the Air Line Pilots Association’s perspective that
shipment of lithium batteries by air should be strictly prohibited until new regulations
are in place to ensure the safe transport of hazardous materials. The Department must
be vigilant in resolving this issue, as incidents involving shipments of lithium
batteries continue to occur, with eight incidents in 2008—two of which were life-
threatening—and six so far in 2009. The most recent of these include a burnt lithium
battery package discovered on an aircraft at Honolulu International Airport on
June 18, 2009, and another package that caught fire on a flight to St. Paul
International Airport on August 14, 2009.

OIG Management Advisory Presses PHMSA To Immediately Address
Safety Concerns
On July 28, 2009, we issued a management advisory to PHMSA outlining concerns
with weaknesses we have identified thus far with the special permit process. In short,
our work shows that immediate attention is needed to prevent unsafe packaging and
transport of explosives and explosive components traveling under Department of
Transportation Special Permit Numbers 8554, 11579, and 12677.



14
     OIG Report Number SC-2005-015, “New Approaches Needed in Managing FAA’s Hazardous Materials Program,”
     November 19, 2004. OIG reports are available on our website: www.oig.dot.gov.


                                                                                                       10
PHMSA’s August 6, 2009, response to our advisory outlines its plans to address these
identified issues:

  Special permits issued to trade associations – permits to be issued to member
   companies only, not to the associations.

  Safety documentation evaluations – revise policy and procedures to ensure that an
   “equivalent level of safety” determination is met and fully supported.

  Applicant fitness – revise policy and procedures to ensure that fitness
   determinations are well-founded and fully supported.

  Formally develop standard operating policies and procedures for the special
   permits program.

PHMSA’s planned actions addressed some, but not all, of OHME’s June 2007
recommendations. One such action is to develop a pilot project for installing
electronic stability control systems on bulk explosive vehicles to prevent rollovers.
However, PHMSA still needs to address OHME’s remaining safety concerns. We
will continue to monitor PHMSA’s progress as it begins establishing implementation
priorities in these areas and means to measure effectiveness.

CONCLUSION
Regulating and monitoring the movement of hazardous materials is a critical part of
ensuring the safety of the Nation’s transportation system, and it is PHMSA’s role to
properly assess all risks before allowing applicants to participate in commerce under
special permits and approvals. However, a number of longstanding and new issues
call into question the effectiveness of PHMSA’s Special Permits and Approvals
Program. The sheer number of active special permits and approvals alone—many
dating back 10 years or more—underscores the need to reexamine the strategy for
adopting special permits and approvals into the Hazardous Materials Regulations to
keep the current regulatory framework in sync with today’s operating environment.
As PHMSA addresses these areas, it must re-focus its approach to proactively identify
safety risks, work with partner safety agencies to resolve safety and practicality
matters, and set targeted oversight priorities.

This concludes my statement, Mr. Chairman. I would be happy to answer any
questions that you or other Members of the Committee may have.




                                                                                  11
  EXHIBIT. PROCESS REQUIREMENTS FOR SPECIAL PERMIT AND
  APPROVAL APPLICATIONS

Table A. Process Requirements for Special Permit Applicants and PHMSA
     What Applicants Must Provide                                 How PHMSA Processes the Request
New Permits
 identification/agent information                            enter application into HMIS\a
 citation of regulation relieved from                        submit to Technical Office if needed\b
 proposed mode of transport                                  30-day period: determine conformity to
 all supporting documents (e.g., test results and            requirements and accept or reject
 drawings)                                                    evaluate equivalent level of safety
 demonstration of equal level of safety                      assess fitness of applicant to conduct the activity
 all relevant shipping and incident experience               authorized
                                                              publish notice in Fed. Register
                                                              15-day period: out for comments
                                                              draft permit with justification
Renewal Permits
 identification/agent information                            15-day period: determine completeness/conformity
 permit number for renewal                                   verify timely receipt and enter into HMIS
 certification that original application remains             draft authorization letter for signature
 accurate and complete
 all relevant shipping and incident experience
Party-To Permits
 identification/agent information                            30-day period: determine completeness/conformity
 permit number seeking to join                               evaluate equivalent level of safety
 demonstration of equal level of safety                      assess fitness of applicant to conduct the activity
                                                              authorized
                                                              verify “party-to” status not previously
                                                               granted
                                                              draft authorization letter for signature
Emergency Permits
 facts showing necessity to prevent injury,                  determine necessity to prevent injury, support
  support national security, or prevent economic               national security, or prevent economic loss
  loss                                                        publish in Fed. Register within 90 days
 the application to the DOT modal official for the
  initial mode of transportation to be utilized.
  \a Hazardous Materials Information System (HMIS)
  \b If non-technical, the application is assigned to a non-technical Special Permit Specialist.




  Exhibit. Process Requirements for Special Permit and Approval                                                 12
  Applications
    Table B. Process Requirements for Approval Applicants and PHMSA
     What Applicants Must Provide                           How PHMSA Processes the Request
New Approvals
 identification/agent information                      enter application into NetFYI Information
 section of regulation under which                      Management System
 application is made                                    submit to Technical Office if needed
 description of the activity for which the approval    evaluate equivalent level of safety
  is required                                           assess fitness of applicant to conduct the activity
 proposed mode of transit                              authorized
 all supporting documents (e.g., any additional        draft authorization letter
  information specified in the section containing
  the approval, test results, drawings, and any
  required reports)

 Examples include classifications of explosives
 and fireworks, cylinder retesters, and
 manufacturers of cylinders

For an approval that provides exceptions to
the regulations, additional information is
required:

 demonstration of equal level of safety
 identification of any increased risk to safety or
  property



Renewal Approvals
 identification/agent information                      determine completeness
 for approvals with expiration dates: renewals         draft authorization letter for signature
 must be filed in same manner as original
 application
 approval number for renewal




  Exhibit. Process Requirements for Special Permit and Approval                                          13
  Applications
